WAIVER

Supreme Court of the United States

No. 19-531

Ofra Levin v. JPMorgan Chase Bank, N.A., et al.

(Petitioner) (Respondents)

 

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
QO Please enter my appearance as Counsel of Record for all respondents.

}€ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

__Wells Fargo Bank, N.A,, As Trustee, etc.
XK 1 ama member of the Bar of the Supreme Court of the United States.

0 Jam not presently a member of the Bar of this Court. Should a response be requested,

the response will be filed byga Bar oy ott
Signature 2

Date: __ November 22, 2019 : a oe _

(Type or print) Name___ Patrick G. Broderick, Esq. (SCOTUS Bar ID # 269231)
Mr. OMs. OMrs. CI Miss

Firm__Greenberg Traurig, P.A.
Addvess__777 S, Flagler Drive, Suite 300 East.
City & State__West Palm Beach, FL __
Phone __(561) 650-7915

 

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF.
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

 

Ce: Ofra Levin (pro se)
960 Cliffside Avenue
North Woodmere, NY 11581

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

 
